Washington, D.C. 20530

October 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Cedrin Farodd Carter v. United States of America,
S.Ct. No. 21-5754

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 17,
2021, and placed on the docket on September 22, 2021. The government’s response is due on
October 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5754
CARTER,CEDRIN FARODD
USA

TOBIE J. SMITH
FEDERAL PUBLIC DEFENDER FOR THE
NORTHERN DISTRICT
505 20TH STREET NORTH
SUITE 1425
BIRMINGHAM, AL 35203
205-208-7170
TOBIE_SMITH@FD.ORG

